No. 19-1004
IN THE
SUPREME COURT OF THE UNITED STATES

ROBERT JAMES JAFFE, M.D.,
Petitioner,
vs.
Brad Sherman, US Congressman, and Does 1-10
Respondent

After a Denial of Petition for Writ of Certiorari by the
Justices of the US Supreme Court

PETITION FOR REHEARING

Robert James Jaffe, M.D.
Internal Medicine
22139 Burbank Blvd. Suite Five
Woodland Hills, CA 91367
Telephone: 818-713-1378

1

Petitioner hereby submits this Petition for
Rehearing under Rule 44.2 of the U.S Supreme
Court Rules, of the Court’s Denial of his Petition
for Writ of Certiorari, denied by the Court on
April 20, 2020.
STATEMENT OF GROUNDS
Petitioner is a Board Certified Internist
was an attending physician with the Kaiser
Foundation Hospital (the Hospital), and partner
with the Hospital’s exclusively affiliated Southern
California Kaiser Permanente Medical Group for
17 years. (1977 to 1994)
The Hospital terminated Petitioner by
fraudulent fixed peer review (state and federal
required) and fraudulent fixed (state and federal
required) required quasi-hearings. Per California
Business & Professions Code §809, et.seq., and
Federal statute, 42 U.S.C. §1112, whenever a
hospital terminates a physician, the hospital must
afford hearings in strict accordance with statutory
law (809, et seq.) and due process to allow appeal of
the termination. The Hospital held three Hearings.
Petitioner so appealed. Prevailing at any one of
these hearings would have reversed the
termination.
Per state law, having completed the Hospital’s
peer review and three Hearings, Petitioner then had
the right to petition the state court for Writ of
Mandamus to reverse the termination.
The state court procured a judgment in favor of
the Hospital by judiciary fraud, and in turn the state

2

appellate devised its own fraudulent actions on its
court to sustain the lower court’s judgment.
Later, two Federal District Courts and three
Federal Circuit Courts, by overt acts of judiciary fraud
on their respective courts, ignored FRCP Rule 60(b)
and (d), and U.S. Supreme Court and federal and state
appellate precedent to refuse Petitioner review of his
Complaints and Motions and deny his evidentiary
hearing right thereof on a state court judgment
procured and sustained by fraud on the state courts.
The three Circuit Courts’ decisions herein are in
direct contradiction to the holdings of five other Circuit
Courts, FRCP Law, U.S. Supreme Court and state
appellate precedent and the U.S. Constitution,
Fourteenth Amendment.
The Petitioner brings his Petition before the U.
S. Supreme Court to secure the uniformity of decisions
and to resolve a matter of exceptional importance.

MEMORANDUM OF POINTS AND
AUTHORITIES
1. Respondent’s Waiver in Response to
Petitioner’s Petition for Writ of Certiorari
falsely states that Petitioner had named multiple
parties when Petitioner had named only one
Party, Respondent Congressman Brad Sherman.
Respondent’s states “There are multiple
Respondents and I do not represent all Respondents,
(see App. 541 herein )

^‘7

(

2

appellate devised its own fraudulent actions on its
court to sustain the lower court’s judgment.
Later, two Federal District Courts and three
Federal Circuit Courts, by overt acts of judiciary fraud
on their respective courts, ignored FRCP Rule 60(b)
and (d), and U.S. Supreme Court and federal and state
appellate precedent to refuse Petitioner review of his
Complaints and Motions and deny his evidentiary
hearing right thereof on a state court judgment
procured and sustained by fraud on the state courts.
The three Circuit Courts’ decisions herein are in
direct contradiction to the holdings of five other Circuit
Courts, FRCP Law, U.S. Supreme Court and state
appellate precedent and the U.S. Constitution,
Fourteenth Amendment.
The Petitioner brings his Petition before the U.
S. Supreme Court to secure the uniformity of decisions
and to resolve a matter of exceptional importance.

MEMORANDUM OF POINTS AND
AUTHORITIES
1. Respondent’s Waiver in Response to
Petitioner’s Petition for Writ of Certiorari
falsely states that Petitioner had named multiple
parties when Petitioner had named only one
Party, Respondent Congressman Brad Sherman.
Respondent’s states “There are multiple
Respondents and I do not represent all Respondents,
(see App. 541 herein )

. <7

3

This is blatantly false. Petitioner named only
one party in his Petition for Writ of Certiorari,
Respondent Congressman Brad Sherman. In the
caption Petitioner had merely included the standard
language of “Does”, “Does 1 through 10”, which is
standard to reserve the right to include additional
parties if needed.

2. The Court’s Order Denying Petitioner’s
Petition for Writ of Certiorari Did Not Provide
an Articulation of the Reason For Denial.
On April 20, 2020, the U.S. Supreme Court denied
Petitioner’s Petition for Writ of Certiorari without
any stated reason for the denial.. The Court’s Order
merely stated “Petitioner’s Petition for Writ of
Certiorari is denied. “
However, FRCP Rule 52 requires that in all cases tried
without a jury, the court must find the facts
specifically and state its conclusions separately.”

3. None of The U.S. Supreme Court Justices
Signed On to the Order Denying Petitioner’s
Writ of Certiorari, as Required under the Rules
of Supreme Court Procedure.
None of the US Supreme Court Justices signed-on to
the Order Denying Petitioner’s Writ of Certiorari, (see
App. 542 herein,) as required by US Supreme Court
rules. According to the US Supreme Court Rules of
Procedure, the majority of justices must agree to all
contents of the court’s opinion before it is publicly
delivered, and the justices must sign onto the Opinion.

3*

4

However the letter dated April 20, 2020, denying
Petitioner’s Writ of Certiorari bore only the U.S.
Supreme Court’s Clerk’s name, Scott S. Harris.
The Rules of U.S. Supreme Court Procedure state:
“A majority of Justices must agree to all of the
contents of the Court’s Opinion before it is publicly
delivered. Justices do this by “signing onto” the
Opinion. The Justice in charge of writing the
Opinion must be careful to take into consideration
the comments and concerns of the others who voted
in the majority. If this does not happen, there may
not be enough Justices to maintain the majority.
On rare occasions in close cases, a dissenting
opinion later becomes the majority opinion because
one or more Justices switch their votes after
reading the drafts of the majority and dissenting
opinions. No opinion is considered the official
opinion of the Court until it is delivered in open
Court (or at least made available to the public).”
4. This Petition for Rehearing Should Be
Granted To Secure Uniformity of the Court’s
Decisions and to Resolve a Matter of
Exceptional Importance.
A. The U.S. Supreme Court illegally
denied Plaintiff his Right to a Hearing
on his Petition.
The three separate (3) branches of government
of and by the Constitution are the Executive branch,
the Legislative branch and the Judicial Branch.

J*

5

The Judges Bill of 1925, where in upon having
been lobbied by the Justices Congress permitted the
justices’ discretion in determining what cases they
might wish to hear and the 1988 Bill of Congress
which further reinforced the 1925 Bill are illegal and
unconstitutional as the (legislative branch) Congress,
is prohibited by the US Constitution any right to
provide or dictate rules and laws to the U.S. Supreme
Court. The three branches of government are
uniformly and totally separate from each other.
That Congress has created such laws,
Respondent has fraudulently misstated facts that
Petitioner provided to him so that Respondent thereby
refusing to introduce to Congress that Congress must
enforce its laws that it, Congress provided to the US
Supreme Court to adhere to and enforce.
As shown in Petitioner’s Petition for Writ of
Certiorari, the Respondent Federal Justices overtly
refused to follow the U.S. Supreme Court FRCP Rules
and Constitutional law in order to deliberately commit
acts of fraud on their respective courts.
As shown in Petitioner’s Petition for Writ of
Certiorari, the Respondent Justices violated state and
federal statutory law, U.S. Supreme Court law and
precedent and the U.S. Constitution and committed
overt acts of fraud upon their respective courts which
included the denial of a property right without due
process of law, in violation of the Fourteenth
Amendment to the U.S. Constitution.

6

CONCLUSION
The U.S. Supreme Court is the Court of last
resort to enforce its FRCP Rules and U.S.
Constitutional law, to secure uniformity of the
law and to prohibit violations of the U.S. Constitution,
federal statutory law and U.S. Supreme Court law and
precedent.
The Justices of the U.S. Supreme Court do not
have discretion to refuse to uphold the Constitution
nor the discretion to refuse to uphold and enforce the
congressionally mandated Rules of Law that Congress
had directed the US Supreme Court create, adhere to:
that US Supreme Court and all the courts to the US
Supreme Court refused to adhere to. The Justices of
the U.S. Supreme Court do not have discretion and to
deny to hear such Petition.
The Respondents Justices are duty bound to
follow the FRCP Rules of the U.S. Supreme Court and
must uphold the law. In denying review of such
Petition, the U.S. Supreme Court Justices have
allowed and are therefore complicit with the multiple
actions of fraud upon court committed by the Justices
of the three Federal District Courts and the Federal
Appellant Court.
Ill

♦ ,-vJ

7

Furthermore, the Court is duty bound to provide
an articulation for its legal reason for denial. Such
denials without articulation are by definition the
refusal of a Court to act diligently to secure justice.
The U.S. Supreme Court justices must hear on
such Petition for Writ of Certiorari. This is the law as
set forth by the U.S. Constitution.

/

DATED: May 25, 2020

;

Robert J. Jaffe,\MD
Petitioner in Pro Per

